STATE OF TENNESSEE

Office of the Attorney General

 

HERBERT H. SLATERY III
ATTORNEY GENERAL AND REPORTER

P.O. BOX 20207, NASHVILLE, TN 37202
TELEPHONE (615)741-3491.
FACSIMILE (615)741-2009

August 28, 2020

Honorable Scott S. Harris, Clerk of Court
Supreme Court of the United States

1 First Street NE

Washington, D.C. 20543

Re: Hernandez, et al. v. Boles, et al. No. 20-134
Dear Mr. Harris:

Respondents respectfully request an extension of time in which to respond to
the petition for writ of certiorari filed in this case. The petition was filed on August
3, 2020, and docketed on August 7, 2020. A response is currently due on September
8, 2020.

Our office continues to implement a remote-work response to COVID-19
concerns, which has hampered our ability to respond to the certiorari petition by
September 8. In addition, circumstances have dictated the reassignment of this
matter to another attorney in the office. Accordingly, a request is made for an
additional 30 days, until October 8, 2020, in which to respond to the petition.

    
  
 

SEPH F. WHALEN
gociate Solicitor General
‘ennessee Attorney General's Office
615-741-3499

joe.whalen@ag.tn.gov

electronic cc: Paul Andrew Justice III, drew@justicelawoffice.com
